CERTIFICATE OF SERVICE
I, Toni Sharretts Collins, counsel for Petitioners and a member of the Bar of
this Court hereby certify that on the 21st day of February, 2020, a copy of this
Application for Extension of Time to File a Petition for Writ of Certiorari in the
above-entitled case was mailed, first class postage prepaid, to Paul J. McConnell,
III; Lange, Hudspeth, McConnell & Tibbets, L.L.P., 1177 W. Loop South, Suite
1700, Houston, Texas 77027, and e-served to pmcconnell@dhmtlaw.com, counsel
for the respondent herein. I further certify that all parties required to be served have
been served.
s/Toni L. Sharretts Collins
TONI L. SHARRETTS COLLINS

6

